m
0:--

o

VJ W

In The

Supreme Court of the United, States
^
Mark Rudolph Arsenio Reed
Petitioner.
V

^

[ i Li n vHi U

PILED
JAN 2 I 2021

Robert Toole, Warden/Regional Director
Georgia Department of Corrections et,al.
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI
Mark Rudolph Arsenio Reed
GDC 1000664635
GEORGIA STATE PRISON
1st Avenue, South
Reidsville, GA 30453
In Pro Se
January 8, 2021

d

n r ,n
r "H

*■

Question(s) Presented
Georgia state law O.C.G.A. 17-9-61 provides the
following: (a) When a judgement has been rendered,
either party may move in arrest thereof for any defect
not amendable which appears on the face of the record
or pleadings, (b) A motion in arrest of judgement must
be made during the term at which judgement was
obtained. The United States Constitution First
Amendment reads in relevant part which guarantees
the "right of the people... to petition the Government for
a redress of grievances".
1.
The question is whether an indigent defendant whose
representation by appointed trial counsel terminates at
the end of sentencing, whom intends to exercise the
right to file a motion in arrest, however does not have
post conviction appellate counsel appointed by the court
until well after the end of the term of court as
judgement entered, does that defendant have standing
to claim a deprivation of the First Amendment right to
petition the court
1(a) Whether under the aforementioned circumstances
does an indigent defendant have standing to claim a
deprivation of effective assistance of counsel guaranteed
by the Sixth and Fourteenth Amendments of the United
States Constitution, for not being appointed appellate
counsel at a critical stage pre-appeal; (b) and as the
designated class, do indigent defendants have standing
to claim violations of both Due Process of the Law and
Equal Protection of the Law in accord with the

r

Fourteenth Amendment of the United States
Constitution for not being appointed appellate counsel
at the same term of court judgement was obtained,
ultimately not making the 17-9-61 filing and hearing of
the motion in arrest available to counsel nor defendant.
2.

Under Georgia state law, when a claim that an
indictment is absolutely void is not properly asserted in
the trial court, it can only be reviewed
on appeal through a Habeas Corpus proceedings. A
motion for new trial is not a proper proceeding for
raising questions as to the legal sufficiency of an
indictment, and provides nothing for review on appeal.
Taylor v. State, 303 Ga. 583 (2018).
The question is whether the Eleventh Circuit has
misinterpreted and misapplied the governing standard
for assessment for a Certificate of Appealability as set
forth in Miller-El v. Cockrell, 537 U.S. 322 (2003), by
deferring to and adopting the district courts and lower
state courts ruling and findings, all of which defer to the
trial courts findings from a Motion For New Trial final
order, a court to which the state law establishes has no
subject matter jurisdiction over the claims submitted
before the magistrate, district court and Eleventh
Circuit.

u

4

iii

LIST OF PARTIES
All parties do not appear in the caption of the case on the
cover page. A list of all the parties to the proceeding in the
court whose judgement is the subject of this petition is as
follows:
The petitioner Mark R.A. Reed is the petitioner listed in the
action No. 20-10802 before the Eleventh Circuit. Robert
Toole is Warden / Regional Director named as respondent to
in action No. 20-10802. Megan Hill and Paula K. Smith were
respondents on behalf of the state of Georgia in the habeas
action No. l:18-cv-03970-AT before the magistrate court in
the United States District Court, Northern District of
Georgia. They were not parties before the District Court nor
the United States Court of Appeals.

"*

♦

XV

TABLE OF CONTENTS
Questions Presented.

.1

.m

List of Parties..........
Index of Appendices..................... .
Table of Authorities......................
Petition for a Writ of Certiorari.
Opinions Below...................................
Jurisdiction .......................................................................
Constitutional Provisions, Statute, and Rule Involved.
Statement of the Case.........................................................

,v,vi
,vii
1
1
2
2

5

A. Trial Court Want of Jurisdiction.

7

B. State Habeas Court Has 1st Qualified Jurisdiction.

9

C. Federal District Court Proceedings..........................

11

D. Eleventh Circuit Proceedings...................................
Reasons for Granting the Petition................................

12
13

1. The Court Should Grant Certiorari To Resolve The Systematic Deprivation Of
Constitutional Rights Of Indigent Defendant's To Exercise The First
Amendment Right To Petition The Courts Free Of Unreasonable Restrictions;
The Sixth Amendment Right to Be Appointed Effective Assistance Of Counsel
During Critical Stage; The Fourteenth Amendment Right To Due Process Of
The Law; The Fourteenth Amendment Rights Of The Indigent Class Of
Defendants To Enjoy Equal Protection Of The Law
A.

Indigent Defendants Are The Deprived Class.....................

B. Structural Error Exist When Deprived Of Right To Counsel,

14
18

C. The Sixth And Fourteenth Amendments Guarantee The Effective Assistance
Of Counsel Throughout Critical Stage
21
D. Certiorari Should Be Granted Because the United States Court of Appeals for
the Eleventh Circuit Imposed an Improper and Unduly Burdensome COA
Standard that
Contravenes This
Courts Precedents, Reflects Deep
Arbitrariness, and Deepens a Circuit Split.
28
E. The Magistrates Recommendation Denying Habeas Relief Violates All
Applicable Standards Of Review And Does Not Comport With AEDPA
Standard.. 32F.
An
Examination
Of The
Lower
State
Courts
Jurisdictions
36

V

V

INDEX TO APPENDICES
Page
APPENDIX A-l- Order of the United States Court of Appeals for the Eleventh
Circuit, denying issuance of a Certificate of Appealability,
September 3, 2020
1-3
APPENDIX A-2- Order of the United States Court of Appeal for the Eleventh
Circuit denying reconsideration for issuance of Certificate of Appealability,
1-2
October 22, 2020.
APPENDIX B - Order of the a United States District Court for the Northern
District of Georgia, denying issuance of a Certificate of Appealability, February
24, 2020
1-6
APPENDIX-C Order of the United States District court, Magistrate, Northern
Dist. Of Georgia, denying writ of habeas corpus R&R,
December 7, 2019
1-28
APPENDIX-D -1 Order of the Georgia Supreme Court, denying Certificate of
1
Probable Cause, June 4, 20218.
APPENDIX-D- 2 Order of the Georgia Supreme Court, denying Direct Appeal,
March 8, 2014.
No subject matter juridiction.
1-11
APPENDIX E — Order of he Superior court Tattnall County, denying habeas
relief, April 13, 2017.
1-5
APPENDIX F — 1 Order of the Dekalb County Superior Court, denying Motion
for New Trial, February 26, 2013
No subject matter jurisdiction,
1-6
APPENDIX F — 2 Order of the Dekalb County Superior Court, denying Motion
for
vi

production of court records etc., October 5 2012.
1-2
APPENDIX G - Prosecutor William Clark, Orally Amending Indictment,
September 26, 2011
Trial Transcript,
Cover, 63-lines 17-25,
64 fine 1
APPENDIX -H —1 Notice of Appointment, Gerard Kleinrock, January 18,
2012..1-5
APPENDIX -H - 2 Notice of Appointment, Teri Smith, August 23, 2012

1-3

APPENDIX -I- Stipulation of State, Trial Court and Leonora Grant, February
12,2013
Cover, 9-10

k

V

TABLE OF AUTHORITIES
Cases
FEDERAL CASES
Bounds v. Smith, 430 U.S. 817.............................
Crutchfield v. Wainwright, 803 F2d 1103 (1986)
Douglas v. California, 372 U.S. 353 1963)..........
Evitts v. Lucey, 469 U.S. 387 (1985)...................
Faretta v. California, 422 U.S. 806 (1975)...........
Jordan v. Fisher, 135 S. Ct. 2647 (2015)..............
Massiah v. United States, 377 U.S. 201 (1964) .
McGee v. McFadden, 139 S. Ct. 2608 (2019).......
Mempa v. Rhay, 389 U.S. 128 (1967)...................
Miller-El v. Cockrell, 537 U.S. 322 (2003)............
Nelson v. Peyton, 415 F2d 1154 (1969)................
Penson v. Ohio, 488 U.S. 75 (1988).......................
Slack v. McDaniel, 529 U.S. at 484 (2000)...........
Swenson v. Bosler, 386 U.S. 285 (1967)...............
United States v. Ash, 413 U.S. 300 (1973............
United States v. Cronic, 466 U.S. 653.................
United States v. Roy, 761 F3d 1285 ....................
United States v. Wade, 388 U.S. 218 (1967)........

Fn. 12 pg. 22
........... fn. 10 pg. 21
.... Fn 4 pg. 17
.......... Fn. 10 pg. 21
....Fn. 3 pg. 16
.................. pg. 30
............. Fn. 9 pg. 20
...................pg. 29
......Fn. 4 pg. 17
......pg. 32, 33
Fn. 10 pg. 21
...............Pg-14
.........pg 28
......Fn. 4 pg. 17
......Fn. 9 pg. 20
..Fn. 10 pg. 21
...Fn. 6 pg. 19
Fn. 9 pg. 9, 20

STATE CASES
Abreu v. State, 206 Ga. App. 361.................
Boswell v. State, 114 Ga. 40 (1901)..............
McKay v. State, 234 Ga. App. 556 (1998)....
Pless v. State, 255 (2002)..............................
Reed v. State, 294 Ga. 877 (2014)................
Rucker v. State, 114 Ga. 13 (1901)..............
Shelnut v. State, 289 Ga. App. 528 (2008)..
State v. Eubanks, 239 Ga. 483.....................
State v. Graves, 322 Ga. App. 798 (2013)....
Taylor v. State, 303 Ga. 583 (2018)..............
Thompson v. State, 58 Ga. App. 452 (1938)

........... pg. 37
........ pg. 26, 37
........... pg. 26
............ Pg- 6
.Fn. 13 pg. 24, 25
............ pg. 37
............ pg. 39
...Fn. 5 pg 18
Fn. 1 pg. 7, 26
......... pg. 39
.......... pg. 26

m

VI

TABLE OF AUTHORITIES CONT...
Thompson v. State, 304 Ga. 146 (2018)
Voils v. State, 266 Ga. App. 738 (2004).

Fn. 13 pg. 24
.pg. 6

CONSTITUTION
United States Const. Amend. I
United States Const. Amend. VI
United States Const. Amend. XIV
OFFICIAL CODES OF GEORGIA
........................p. 25
.............. Fn. 2 p. 9
............... Fn. 6 p.19
p.6, Fn. 1 p. 7, 14, 20

O.C.G.A. 5-6-49..........
O.C.G.A 15-1-2 ..........
O.C.G.A 15-6-3(37).....
O.C.G.A 17-9-61(a)-(b)
FEDERAL CODES
28 U.S.C. § 2254

0

1

In The

Supreme Court of the United States
Mark Rudolph Arsenio Reed, In Pro Se,
Petitioner,
v.

Robert Tools, Warden, Regional Director ., et al.,
Respondents.

On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Eleventh Circuit
PETITION FOR WRIT OF CERTIORARI
Petitioner Mark R.A. Reed respectfully petitions this
Court issue a writ of certiorari to review the order of the
United States Court of Appeals for the Eleventh Circuit
denying a Certificate of Appealability (“COA”) to review
the denial of his petition for a writ of habeas corpus
relief before the Northern Federal District Court of
Georgia in his Georgia State criminal case.
OPINIONS BELOW
The Eleventh Circuit Court’s decision denying Mr.
Reed Certificate of Appealability is unreported, it is
available at Reed v. Toole, No. 20-10802, September 3,
2020 (Appendix A (1)). The Northern District Court of
Georgia issued an order denying reconsideration of the
Magistrates recommendations, it is unreported, it is
available at Reed v. Toole, No. l:18-cv-03970-AT,
February 21, 2020 (Appendix B 1,2). The Magistrates
recommendations denying habeas corpus relief is

Q

0

2

unreported, it is available at Reed v. Toole, No.
l:18-cv-3970-AT-CMS, December 17, 2019 (Appendix C).
The Georgia Supreme court issued a one line denial of a
Certificate of Probable Cause, it is unreported, it is
available at Reed v. Toole, No. S17H1626, June 4, 2018
(Appendix D (1)). The state habeas court issued an order
denying habeas corpus relief, it is unreported, it is
available at Reed v. Toole, No.2014-HC-99-CR, April 13,
2017 (Appendix E). The Georgia Supreme Courts order
denying direct appeal is reported at Reed v. State,
S13A1583, March 28, 2014, it is available at (Appendix
D (2). The state trial courts final order denying motion
for new trial, February 26, 2013 is unreported, it is
available at State of Georgia v. Mark Reed, No.
09-CR-4282-4, it is available at (Appendix F)
JURISDICTION
The date on which the United States Court of Appeals
decided my case was September 3, 2020. A timely
petition for reconsideration was denied by the United
States Court of Appeals Eleventh Circuit on the
following date: October 22, 2020, and a copy of the order
denying reconsideration for COA appears at Appendix A
(2). This Court has jurisdiction pursuant to 28 U.S.C.
§1254(1).
CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED
This case involves a state criminal defendant’s
constitutional rights
under the First, Sixth, and
Fourteenth Amendments, and is governed by the
Antiterrorism and Effective Death Penalty Act of 1996
(“AEDPA”), codified in relevant part at 28 U.S.C. §
2254, 28 U.S.C. §2253

0

3
The First Amendment to the United States Constitution
provides in pertinent part the following:
Congress shall make no law respecting an
establishment of religion, or prohibiting
the free
exercise thereof; or abridging the freedom of speech, or of
the press; or the right of the people peaceably to
assemble, to petition the Government for a redress of
grievances.
U.S. const.amend. I
The Sixth Amendment to the United States Constitution
provides:
In all criminal prosecutions, the accused shall
enjoy the right to a speedy and public trial, by an
impartial jury of the State and district wherein the
crime shall have been committed, which district shall
have been previously ascertained by law, and to be
informed of the nature and cause of the accusation; to be
confronted with the witnesses against him; to have
compulsory process for obtaining witnesses in his favor,
and to have the Assistance of Counsel for his defense.
U.S. Const. Amend. VI
The Fourteenth Amendment to the United States
Constitution provides:
No state shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the
United States; nor shall any state deprive any person of
life, liberty, or property, without due process of law; nor

i

«

4
deny to any person within its jurisdiction the equal
protection of the laws.
U.S. Const.Amend. XIV
28 U.S.C. § 2253 provides, in pertinent part:
(c)(1) Unless a circuit justice or judge issues a certificate
of appealability, an appeal may not be taken to the court
of appeals from—
(A)the final order in a habeas corpus proceeding in
which the detention complained of arises out of
process issued by a State court
***

(2) A certificate of appealability may issue under
paragraph (1)
only if the applicant has made a substantial
showing of the denial of a constitutional right.
28 U.S.C. §2254
(d) An application for a writ of habeas corpus on
behalf of a person in custody pursuant to the
judgement of State court shall not be granted
with respect to any claim that was adjudicated on
the merits in State court proceedings unless the
adjudication of the claims(1) resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly
established Federal law, as determined by the
Supreme Court of the United States; or
(2) resulted in a decision that was based on an
unreasonable determination of the facts....

#

*

5
STATEMENT OF THE CASE
FACTUAL AND PROCEDURAL HISTORY
The petitioner Mark Reed, attended trial in the DeKalb
County Superior Court in Georgia on September 26,
2011 on a seven count indictment. After the jury was
impaneled and sworn, the prosecution presented its
theory of the case. During the opening statements
prosecutor William Clark addressed the jury directly
concerning the indictment. Mr. Clark told the jury the
date in the grand jury indictment is not correct, and
further admonished the jury not to be listening for
anything concerning that date. In accordance with
state law, this is not permissible. The

indictment

became void once the date was stricken from the
indictment, the trial, the jury and the defense. The
state did not present an explanation nor another date
(App. G Doc. Pg. 63). Under state and federal law the
court was obligated to direct the verdict. The court
permitted the trial to continue. Mr. Reed was
subsequently convicted

on all seven counts in the

indictment, ranging from felony murder,

malice

murder, theft by taking, theft by receiving, aggravated
assault, possession of a fire arm within arms reach, and
concealing death of another.

%

-«

6
Mr. Reed was ordered to serve a life sentence, on
October 11, 2011. At the end of sentencing Mr. Reed’s
conflict appointed counsel Karlyn Skall was dismissed
from representation.
Mr. Reed awaited appointment of post conviction
appellate counsel from October 11, 2011 sentencing,
until the end of that term of court, the first Monday of
November 2011. Mr. Reed was unable to reach the
O.C.G.A.

17-9-61(a)-(b)

'Motion in Arrest' filing

deadline without counsel of record.
Mr. Reed is not able to petition the court, in
Georgia, while being represented by counsel or while
awaiting appointment. The court amplified the law
concerning representation when Mr. Reed, without
counsel, and while awaiting appointment of counsel,
petitioned the court for a series of court records and the
trial transcript. The court fashioned an "order" denying
access to anything (public records nor case related)
while being represented, citing Voils v. State, 266 Ga.
App. 738, 742 (2004); Pless v. State, 255.Ga. App.
95„96,(2002) (App. F-2).
Mr .Reed's appellate counsel was not appointed until
Mrs. Teri Smith was appointed in August 2012 (App.

*

7

H-2). Mr. Reed and appellate counsel both were
deprived of the availability of the opportunity to file a
relevant and timely Motion In Arrest nine months
prior when the term of court ended.
The first time that Mr. Reed had any other matter
before the court concerning the same case was a motion
for new trial hearing (case No. 09-CR-4282) scheduled
for January 8, 2013. At this phase Mr. Reed elected to
proceed In Pro Se.
At the scheduled hearing for January 8, 2013, Mr.
Reed submitted to the court a motion in Leave to file a
Motion In Arrest. The court received the motion, but
denied it outright for being untimely. The court
scheduled another hearing for February 12, 2013.

Want of Subject Matter Jurisdiction
At the February hearing Mr. Reed did submit the
grounds of his Motion In Arrest, in a motion for new
trial to the court1 in reconsideration that it was not the

■i

Georgia law is settled that the motion for new trial is not tht
appropriate proceeding for grounds of void indictment; statute of
limitations; variance; impermissible amendment to indictment,
nor is it a substitute for grounds of a motion in arrest. State v.
Graves, 322 Ga. App. 798 hn. (l)-(2) fn. (3)-(4)(2013) To those
allegations, post conviction, the trial court has no subject matter
jurisdiction, outside of a motion in arrest of judgement O.C.G.A.
17-9-61.

8

fault of the defendant nor appellate counsel that the
motion in arrest was not timely filed, that the court
may recognize the error and an exception may qualify
the review of those grounds.
Upon the courts request Mr.Reed explained the
nature of the grounds in the motion alleging that the
state unlawfully amended the indictment, the state
assistant district attorney Leonora Grant stipulated to
orally amending the indictment and not producing a
date for the indictment, (App. I Doc. Pg. 9-10) (for
which the trial court acknowledge), and in addition, not
proving it upon the trial. Mr. Reed accepted the
stipulation and both sides continued in argument.
On February 26, 2013 the court generated an order
denying the motion for new trial. In the order it
addresses the grounds of
constructive

amendment;

(1) void indictment; (2)
(3)

variance;

(4)

impermissible amendment to the indictment; (5) First,
Sixth, and Fourteenth amendments constitutional
violations for the trial court restricting access to filing
and hearing of motion in arrest of judgement,.. This
"order" is conducted by the courts unauthorized
adjudication of those grounds. (App. F-l)
Mr. Reed filed a timely petition for State direct

V

*

9
appeal. Within the brief of appeal Mr. Reed made
inclusive the same grounds of the motion for new trial.2
On March 28, 2014, the state appeals court generated
its final order denying the direct appeal, addressing
those

grounds,...

by

the

courts

unauthorized

adjudication of those grounds. (App. D-2) Mr. Reed
elected not to pursue a writ of Cert, to this court on the
same grounds, for it could have been easily proven by
the respondents that the trial court and the appellate
court were without jurisdiction to review the same
grounds, and have that Cert, petition denied or
excluded from consideration, making this petition
successive on the same grounds, although challenged
through the correct medium of law.

The State Habeas Court Has First Qualified
Subject Matter Jurisdiction
Mr. Reed filed a timely petition for state habeas
corpus relief. Mr. Reed filed an amended petition
replacing the grounds in the petition with the
2 Georgia law is settled on the provision that indictment related
grounds not challenged by demurrer or motion in arrest of
judgement cannot be enlarged as an enumeration of error at a
motion for new trial, and thereby leave nothing to review on
appeal. Parties to an action cannot confer jurisdiction upon a court
that does not have jurisdiction. O.C.G.A. 15-1-2

%

%

following:

10

Impermissible amendment to the indictment by the
state. (U.S. Const. Amend. V, XIV violations alleged)
Not reviewed through the body of evidence.
Sixth amendment violation to notice, depriving
petitioner of defense and right to fair trial (resulting
from the amendment). Not reviewed through the body
of evidence.
Constructive amendment.(U.S. Const. Amend. XIV
alleged) Not reviewed through the body of evidence.
Court restricted access to file Motion in Arrest (first,
sixth, and fourteenth amendment U.S. Const.
Violations alleged) Not reviewed through the body of
evidence.
Statute of Limitations (U.S. Const. Amend. XIV
violations alleged) Not reviewed through the body of
evidence.
Void indictment. (U.S. Const. Amend. XTV violations
alleged) Not reviewed through the body of evidence.
Defective Verdict. (U.S. Const. Amend. XIV violations
alleged) Not reviewed through the body of evidence.
Judgement and conviction void "Year-and-a-day-rule"
(U.S. Const. Amend. XIV violations alleged). Not
reviewed through the body of evidence.
Void and unconstitutional sentence. Failure to show in
indictment crime occurred prior to return... (U.S.
Const. Amend. XIV violations alleged) Not reviewed
through the body of evidence.

*

%

11
Variance.(U.S. Const. Amend. XIV violations alleged)
Not reviewed through the body of evidence.
Abuse of discretion. (U.S. Const. Amend. XTV violations
alleged.
Explanation of the habeas courts jurisdiction, and the
want of jurisdiction from the trial court to the appeals
court.
The respondents presented nothing in writing to the
court in opposition to the allegations submitted by Mr.
Reed's amended petition. The law recognizes that the
respondents have waived opposition in the lower state
courts.
On April 13, 2017 the habeas court generated an
order denying habeas relief. That court drew all of its
fact finding and conclusions of law from deference to
the appeals court and the trial court, also ruling res
judicata while reaching the merits of the allegations.
(App. E)
Mr. Reed filed a timely petition for Certificate of
Probable Cause to the Georgia Supreme Court. The
Georgia Supreme Court issued a one line denial for a
Certificate of Probable Cause on June 4, 2018.

The Federal Courts Writ of Habeas Corpus

12
Mr. Reed filed a timely petition for writ of habeas
corpus with the lower district court. That petition
alleges the same grounds alleged in the state habeas
and appellate court. (App. D-l)
Respondents filed the first formal response, in the
magistrate court, the Answer to the federal habeas
petition. In the answer, the respondents draw all of the
fact finding and supporting legal synopsis from the
state appeals court, state habeas court and the trial
court.
The magistrate judge fashioned a recommendation
that drew all of its conclusions from the motion for new
trial hearing and final order, from the body of evidence,
and the state appellate court. The court deferred to the
lower state court rulings of law and findings of fact.
The magistrate denied the writ and In Forma Pauperis
December 17, 2019. (App. C)
Mr. Reed filed a timely opposition to the reports and
recommendation

and

petition

for

Certificate

of

Appealability. The district court denied the petition for
COA, and denied In Forma Pauperis adopting the
recommendations of the magistrate and also deferring
to the lower state courts orders and finding of facts,
and also making conclusions from the body of evidence

*

13
of the state trial court, February 21, 2020. (App. B)
Mr. Reed did file a timely petition for Certificate of
Appealability in the United States Court of Appeals.
The petition answers the denials by the magistrate and
district courts, with clarity. However, the petition also
addresses the law against the rulings of the courts
without subject matter jurisdiction.
The lower court denied the petition for Certificate of
Appealability. The petition was denied September 3,
2020 (App. A-l) along the same grounds as the other
courts, with a deference to the court rulings that are
void of subject matter jurisdiction or that defer to the
body of evidence from the trial, see (App. F-l Denial
from Motion for New Trial).
Mr. Reed did file a timely petition for reconsideration
with the lower court. That petition was denied October,
22, 2020 as being moot.(App. A-2)

Reason For Granting The Petition
l.The Court Should Grant Certiorari To Resolve The
Systematic Deprivation Of Constitutional Rights Of
Indigent Defendant's To Exercise The First
Amendment Right To Petition The Courts Free Of
Unreasonable Restrictions; The Sixth Amendment
Right to Be Appointed Effective Assistance Of Counsel
During Critical Stage; The Fourteenth Amendment

m

K

14
Right To Due Process Of The Law; The Fourteenth
Amendment Rights Of The Indigent Class
Defendants To Enjoy Equal Protection Of The Law

Of

"Because the fundamental importance of the
assistance of counsel does not cease as the
prosecutorial process moves from the trial to the
appellate stage, the presumption of prejudice must
extend as well to the denial of counsel on appeal,
Penson v. Ohio, 488 U.S. 75, 88 (1988)."
A. Indigent Defendants Are The Deprived Class
A state defendant has a right to challenge issues of
constitutional rights violations for subjects that do not
require examination of the body of evidence pursuant
to O.C.G.A. 17-9-61(a)-(b) Motion In Arrest.
However, state defendants just as federal defendants
are divided into three distinct classes; those that
exercise the right to self representation; those that are
able to afford the labors of hired counsel; those that are
at a financial disadvantage and counsel has to be
appointed. All are to be afforded diverse protections in
accord with the Sixth and Fourteenth amendment.

«

15
The class that is being burdened by the deprivation
of constitutional rights systematically imposed by court
process or the lack thereof, are "indigent defendants".
The court assumes the initial responsibility for
arranging and providing appointed legal assistance for
indigent defendants.
In Georgia alone there are a minimum of 43 offices
for the Public Circuit Defender, aside from the Conflict
counsel. The qualified offices are contracted to provide
two

circumstances

of

representation.

First

circumstance of representation, trial counsel conducts
pre-trial hearings motion; arraignments; preliminary
hearings; trial; and possibly sentencing ...the only post
conviction proceeding. The second circumstances of
representation is the motion for new trial; motion in
arrest of judgement; and other post conviction hearings
conducted before final judgement; and direct appeal, is

%

16
the responsibility of post conviction/appellate counsel.
The trial counsel is dismissed from obligation of
representation once judgement is pronounced. Unlike
those that have been admonished of their right to legal
assistance on record, and have waived that right3; or as
those that are able to hire counsel which can labor
throughout until the end of the appeal process. The
indigent defendant is under the guide of the court and
are subject to the provision and limits of the contracts
between the court and the circuit defender's office.
Some appointed counsel file skeletal motions for
new trial in the sentencing court or shortly thereafter,
as a courtesy to secure the filing of that motion within
the statutory 30 day deadline. Because the indigent

3 Faretta v. California, 422 U.S. 806 (1975) Requires a waiver of
right to counsel, on the record, in open court. The waiver must be
knowing and intelligent.

4

17
defendant is not at liberty

to file on his behalf4,

although not formally being represented after counsel
is dismissed.
Just as with Mr. Reed, he was appointed conflict
counsel Karlyn Skall, that remained in representation
until sentencing. After judgement was pronounced, the
court dismissed Mrs. Skall from all obligations in the
case. Mrs. Skall elected to inform the court that she
filed a skeletal motion for new trial.
At [t]hat moment the court was orally and clerically
informed of Mr. Reed's intent to pursue post conviction
relief. However, the law does not set any prerequisites
to give additional notice to the court of the defendants
intent prior to filing a motion in arrest, motion for new

4 Appointment of counsel for an indigent is required at every stage
of a criminal proceeding where substantial rights of a criminal
accused may be affected, Mempa v. Rhay, 389 U.S. 128, 134
(1967). Once the right has matured, the law is now certain that it
continues through the conclusion of appellate review. Douglas v.
California, 372 U.S. 353 (1963); Swenson v. Bosler, 386 U.S. 285
(1967).

♦

trial nor appeal5.

18

B. The Sixth And Fourteenth Amendments
Guarantee The Effective Assistance Of Counsel
Throughout Critical Stage
Although the sentencing court was made aware of the
intent, like so many other indigent defendants
similarly situated, in Mr. Reed's case he was sentenced
on October 11, 2011, however, post conviction appellate
counsel Gerard Kleinrock, on January 18, 2012, sent
Mr. Reed notice of his being appointed as counsel for
appeal. (App. H-l) However, Mr. Kleinrock works for
the Public Defender's Office, whom represented the
states witness in the same case. Mr. Reed wrote a letter
to the court and explained the conflict of interest. Mrs.
Teri Smith, was not appointed until August 23, 2012,
both appointments well after the term of court as
judgement rendered.(App. H-2)

5 "In line with the fact that a general demurrer attacks the legality
of an indictment, it is permissible to raise this ground after verdict
by a motion in arrest of judgement even if there was no earlier
objection. State v. Eubanks, 239 Ga. 483,at 485.

**> *
-»

*

*

19
This manner of appointing counsel violates the U.S.
Const. Amend. XIV and VI because it does not afford
due process of the law by untimely appointing post
conviction/ appellate counsel6, nor does it provide equal
protection to indigent defendants such as Mr. Reed,
when the other two classes have no circumstances of
being restricted by the same manner of court
operations that does impede and restrict access to
properly petitioning the courts7.
The term of court complained of in Mr. Reed's case
ended the first Monday of November 2011, as set forth
by the Georgia legislature8. The law constitutes the

6 "We, however, have previously held that " structural error exist
where counsel is prevented from assisting the accused during a
critical stage of the proceeding," United States v. Roy 761 F3d
1285

8

O.C.G.A. 15-6-3(37) sets the schedule for the term of court for
DeKalb County in Georgia ( ..first Monday in January to first
Monday in March; first Monday in May to first Monday in July;
first Monday in September to first Monday in November)

*

20

motion in arrest judgement as a critical stage9.
At the close of the business day on the last day of the
term court, which was the first Monday of November,
2011, in Mr. Reed's case, like so many other indigent
defendants suffering similar circumstances, Mr. Reed
is disadvantaged, as other indigent defendants have
been and are being disadvantaged by a court procedure
that deprives him of the effective assistance of counsel
by suppressing the availability of filing a motion in
arrest (O.C.G.A. 17-9-61) through limiting the
availability of appellate counsel. This is "Structural

9

The courts have defined "critical stage" as proceedings between
an individual and agents of the state (whether formal or informal,
in court or out, see U.S. V. Wade, 388 U.S. 218at 226 (1967)) that
amount to "trial-like confrontations, at which counsel would help
the accused " in coping with legal problems or ...meeting his
adversary, " U.S. v. Ash, 413 U.S. 300, 312-313 (1973); Massiah v.
U.S., 377 U.S. 201 (1964).

*

21
Error"10 by which the law provides one outcome.
C. Structural Error Exist When Deprived Of Right
To Counsel
Without counsel Mr. Reed is being directly denied his
First Amendment right to petition the courts, ...not just
the trial court, but the appellate court.
The issues that could have been presented for a
motion in arrest hearing, with counsel, could have been
perfected for appeal for state and federal review11. This
practice of delayed appointment of counsel violates the
First Amendment of the U.S. Constitution, the right to

10 Cronic and Strickland make clear that where actual o:
constructive denial of assistance of counsel occurs a per se rule of
prejudice applies, Crutchfield v. Wainwright, 803 F2d 1103, 1108
(11th Cir. (1986);(Where, however, a petitioner demonstrates that
circumstances surrounding his representation give rise to a
presumption of prejudice, he will prevail. (Cronic, 466 U.S.at 657
fn. 20).
11 Baker v. Kaiser recognizes the right to counsel after trial am
before direct appeal, and the right to have counsel perfect an
appeal, citing Evitts v. Lucey, 469 U.S. 387 (1985); Nelson v.
Peyton, 415 F2d 1154 (4th Cir. 1969) cert.denied, 397 U.S. 1007.

4.

22

petition the court.12

Not only was Mr. Reed deprived of the right to
petition the court, but is also deprived of the right to
counsel

to

assist

in

preparing

for

and facing

adjudication of those grounds for the motion in arrest,
within the trial court or any other court. The
deprivation hindered and restricted the right to perfect
the record and produced a limited but important
category of grounds for direct appeal.
For at the close of the term of court Mr. Reed's U.S.
Const. Sixth Amendment right to counsel was violated
In accordance with 28 U.S.C. 2254(b)(e)(l) Mr. Reed
has exceeded his burden of proof by clear and
convincing evidence. The magistrate and district courts
were both presented with all of the court generated

12 As similarly situated in Bound v. Smith, 430 U.S. 817, 822...the
abuse occurred pre-filing, and its denying defendants effective
and meaningful access to the courts. The states actions foreclose
indigent defendants from filing a motion to arrest judgement and
rendered ineffective any state court remedy petitioner/defendants
may have had.

*

23

documents (List of Appendices p. iv).
The magistrate judge wrote about this subject, and
provided evidence that the circumstance did occur, but
deferred to the findings of the appeals court (App. C
R&R pg. 18) stating , "The Georgia Supreme Court
explicitly rejected the access to the courts claim and
implicitly rejected the Sixth Amendment and due
process claim-" which reads:
"Contrary to [Petitioner's] assertion, his right of
access to he court was not improperly limited
when the trial court denied his request to file an
untimely motion in arrest of judgement.
[Petitioner]
has
been
afforded
ample
opportunity, both through counsel and pro se, to
assert all of his enumerations of error in his
motion for new trial and now on appeal."
This narration by the appellate court does not address
the constitutional claims at all. The summation by the
court doesn't address

the complaint, it introduces

something extraneous to the subject. Mr. Reed filing in
a court some 15 months after the constitutional

%

24
violation is not relevant to the subject. The fact that
the court ruled that Mr. Reed, as pro se, which didn't
occur for 15 month after the violation, and his counsel
whom was not appointed as counsel for 10 months after
the deprivation complained of, had ample opportunity
to assert the same enumerations in a motion for new
trial and on appeal, is nothing less than peculiar13 .
The law is defined that the Georgia supreme court,
the court of appeals nor the trial court have subject
matter jurisdiction to permit the filing and adjudication
13 As ruled on by the Supreme Court two years after the ruling
Reed v. State, 294 Ga. 877 (2014) that suggest that Mr. Reed, his
counsel Teri Smith , some 15 months after the term of court, had
ample opportunity to file in the trial court and the appellate court,
the Thompson court states: "The court correctly dismissed the
defendants motion in arrest of judgement, which were both filed in
the trial court on July 12, 2016, as untimely because the
defendants convictions were entered on May 10, 2016, during the
trial courts May 2016 term, which ended on July 3, although one
of the motions was post marked on July 1, that did not help the
defendant as both motions were filed with the clerk of court after
the May term had ended and were therefore untimely. Thompson
v. State, 304 Ga. 146 (2018) at 149,150 Div.(4) This ruling from
the same court is indicative of the fact that if a motion that expires
in the possession of the court is considered untimely without
exceDtion. then 15 months after the term Drovides no exceDtion.

*1

25
of claims that serve as being reviewable in a motion to
arrest judgement.
The court that presented that ruling does not have
subject matter jurisdiction according to state statutes14
and, that courts own binding precedents. Prior to the
rulings in Reed v. State, 294 Ga. 877 (2014), more than
100 years of Georgia law established that grounds for a
motion in arrest cannot be presented in a motion for
new trial, and thereby cannot he grounds for an
enumeration of error on appeal.
Irrespective of Mr. Reed's filing of those grounds
before the court , the trial court in a motion for new
trial does not retain jurisdiction to adjudicate
indictment related grounds outside of a demurrer or
motion in arrest. The

state court of appeals and

Supreme court do not retain jurisdiction over issues not

14 Writ of error O.C.G.A. 5-6-49 function is to correct errors of lav
Which is the exclusive function of the appellate courts.

%

26
properly presented before the trial court. The same
year that the trial court reviewed the indictment
related grounds, the appellate court in State v. Graves,
322 Ga. App. 798 (2013) in reviewing the same subject
ruled, .."the trial court lacked the authority to consider
or grant a claim seeking to arrest judgement before the
court in the motion for new trial." (hn. (l)-(2), fn.3-4).
Mr. Reed further addresses this fact...
A motion for new trial is not the proper
method to attack the sufficiency of an
indictment and does not provide a basis
for the court of appeals to review the
indictment". Boswell v. State, 114 Ga. 40,
42 (1)(1901); Thompson v. State, 58 Ga.
App. 452, 453 (1938); McKay v. State, 234
Ga. App. 556, 557(14)(1998)...
The magistrate court could not be considered to have
conducted a valid investigation into the allegations in
Mr. Reed's petition before that court, because it broadly
construes

the

constitutional

violations

and

irregularities in all the prior judicial findings. A writ of

%

27

habeas corpus should have issued out of that court.
The district court, following in concert with the
magistrate court, has deferred to the state court
findings at trial and appeal, adopting the R&R,
basically calling on extraneous evidence to answer
federal questions. A COA should have issued from that
court, finding, a reasonable jurist would find the
magistrate courts assessment debatable or wrong.
The lower court generated a similar but less lengthy
report. All have deferred to the rulings of the state
court. All have introduced extraneous evidence into the
review. The narrations of courts without qualified
subject matter jurisdiction cannot serve to fulfill the
principle obligations of the federal review. A COA from
that court should have issued, finding, a reasonable
jurist would find the district courts assessment of the
constitutional claims debatable or wrong. "Slack v.

*

28

McDaniel, 529 U.S.at 484(2000).
The law is unyielding in this regard, The rulings of a
court in want of subject matter jurisdiction ..is a mere
nullity, and any action taken to exercise and enforce its
commands are void.
D.
Certiorari Should Be Granted Because the
United States Court of Appeals for the Eleventh
Circuit Imposed an Improper and
Unduly
Burdensome COA Standard that Contravenes This
Court’s Precedents, Reflects Deep Arbitrariness,
and Deepens a Circuit Split
The Eleventh Circuits

interpretation of the COA

standard continues to contravene this Courts guidance
and furthers a circuit split regarding the application of
the COA standard. This Court has previously corrected
misapplications of the COA

standard within the

Eleventh Circuit on a case-by-case basis to maintain
uniformity. This Court should grant certiorari to
address this breakdown in the COA review process.
This Court has emphasized the importance of

*

%

29
maintaining uniformity in upholding the COA standard
when granting certificates of appealability. In McGee v.
McFadden, Justice Sotomayor acknowledged that
“[u]nless judges take care to carry out the limited COA
review with the requisite open mind, the process
breaks down.” 139 S. Ct. 2608, 2611 (Mem) (2019)
(Sotomayor, J., dissenting from denial of certiorari)
(“[A]ny given filing—though it may feel routine to the
judge who plucks it from the top of a large stack—could
be the petitioner’s last best shot at relief from an
unconstitutionally

imposed

sentence”).

Justice

Sotomayor also warned against using the COA
standard as a “rubber stamp.” Id. (“[T]he large volume
of COA requests, the small chance that any particular
petition will lead to further review, and the press of
competing priorities may turn the circumscribed COA
standard of review into a rubber stamp”). Justices of

<*

30

this Court have also emphasized that the COA
standard is meant only as a threshold inquiry for
appellate review. Jordan v. Fisher, 135 S. Ct. 2647,
2652 (Mem) (2015) (Sotomayor, J., joined by Ginsburg
and Kagan, JJ. dissenting from denial of certiorari) (“In
cases where a habeas petitioner makes a threshold
showing that his constitutional rights were violated, a
COA should issue”). Since the Eleventh Circuit rejects
the vast majority of COA applications, petitioners such
as

Mr.

Reed

are

improperly

prohibited

from

challenging violations of their constitutional rights.
The Eleventh Circuit "unduly restrict[ed] [the]
pathway to appellate review” for Mr. Reed by denying
his COA application and the reconsideration of that
denial. Mr. Reed's case exemplifies the breakdown of
the COA process within the Eleventh Circuit that this
Court has previously remedied on a case-by-case basis

<•

31
but should now address more systematically.
Reasonable Jurists Could Unquestionably Debate
that Mr. Reed’s case makes it clear that the Eleventh
Circuit is imposing an

unduly burdensome and

improper standard beyond what is mandated by this
Court, and therefore, certiorari is warranted.
The precedent of this Court is clear that a COA
involves only a threshold analysis and preserves full
appellate review of potentially

meritorious claims.

This threshold inquiry is satisfied so long as
reasonable jurists could either disagree with the
district courts decision

or “conclude the issues

presented are adequate to deserve encouragement to
proceed further.” Miller-El, 537 U.S. at 336. Under this
standard, a

claim can be debatable regardless of

whether jurists would grant or deny the petition for
habeas corpus once the case has received full

32

consideration. Id. at 338. The key is “the debatability of
the underlying constitutional claim, not the resolution
of that debate.” Id. at 342; see also id. at 348 (Scalia,
J., concurring) (recognizing that a COA is required
when the district court’s denial of relief is not
“undebatable”).
E. The Magistrates Recommendation Denying
Habeas Relief Violates All Applicable Standards
Of Review And Does Not Comport With AEDPA
Standards
In denying Mr. Reed's petition, the Eleventh Circuit
applied an incorrect standard of review, conducting a
full evaluation of Reed’s claim

on the merits and

making de novo extraneous factual findings,

rather

than determining whether reasonable jurists

could

debate whether he is entitled to relief.
The Courts precedents are clear: a COA involves only a
threshold inquiry and preserves full appellate review

33

of potentially meritorious claims. A petitioner seeking
a COA does not face a high burden.

The petitioner

“need only demonstrate ‘a substantial showing of the
denial of a constitutional right.”’ Miller-El v. Cockrell,
537 U.S. 322, 326 (2003).The Supreme Court has
repeatedly vacated rulings by the Eleventh Federal
Circuit Court of Appeals in which the Circuit Court
denied a Certificate of Appealability (COA) to the
appellant. In doing so, several specific and recurrent
errors by the Circuit Court have been identified and
discussed. Among the errors are the following: (1)
inversion of the statutory order of operations by
assessing merits as reason for the denial of the COA;
(2) placing too heavy of a burden on the pro se litigant
at the COA stage; (3) failing to consider all of the
claims; (4) fully considering pro se litigants. Review of
the denial of a COA by the Supreme Court is not

34
limited to the grounds expressly addressed by the court
whose decision is under review.
It is well established that less stringent standards
should be applied to pro se litigants by the reviewing
courts. One who is not formally trained in law may well
have identified the correct factual bases and the correct
legal basis for a valid argument but may express
himself in such a manner that the legally trained and
formally educated eye may misperceive or overlook
those valid conclusions.
The Magistrate Judge's Report and Recommendation
at the District Court appeared to have been written
with scant if any attention to the detailed brief filed by
Mr. Reed, as a pro se petitioner. In fact it appeared to
have been written directly from the respondents
answer, to the point of actually adopting the findings

<r/

35

from two courts with no subject matter jurisdiction,
without any independent investigation all of the
jurisdictional irregularities pointed out by Mr. Reed.
The magistrates R&R is premised around
determinations made by the lower state courts. Mr.
Reed, in his petition and supporting brief, has pointed
out error with the trial court, which only encompass
error that occurred after the impaneling of the jury,
and prior to the call of the first witness. The grounds in
Mr. Reed's petition do not require examination of the
body of evidence, because

review does not enlist

making a determination with support of the trial
evidence. Yet the magistrates report is riddled with a
rehash of the trial to answer the presented federal
questions.
Mr. Reed has presented claims of error with the state

4.

35
from two courts with no subject matter jurisdiction,
without any independent investigation all of the
jurisdictional irregularities pointed out by Mr. Reed.
The magistrates R&R is premised around
determinations made by the lower state courts. Mr.
Reed, in his petition and supporting brief, has pointed
out error with the trial court, which only encompass
error that occurred after the impaneling of the jury,
and prior to the call of the first witness. The grounds in
Mr. Reed's petition do not require examination of the
body of evidence, because

review does not enlist

making a determination with support of the trial
evidence. Yet the magistrates report is riddled with a
rehash of the trial to answer the presented federal
questions.
Mr. Reed has presented claims of error with the state

4

36

habeas court. The magistrate report defers to the
findings of the state habeas court, which draws its
conclusion from the trial court and the appellate court,
also by adopting the findings of those courts.
In advance of any conclusion made from he magistrate
court Mr. Reed pointed out that the state habeas court
has not conformed to federal law and has adopted
findings

from

jurisdiction.

courts

with

no

subject

matter

The magistrate adopted the same, and

used that information to dismiss the petition for habeas
relief. Not a feasible application of the correct standard
of review.

F. An Examination Of The Lower State Courts
Jurisdictions
Over 100 years of published cases on the subject, the
trial court and the appeals court entered unauthorized
rulings in Mr. Reed's case concerning the indictment.

&

37
This was decided by these courts outside of the correct
forum by which to review the subject matter, and in
contravention with all relevant state law.
"If the indictments were void for any
reason, the question would have been
raised by demurrer before pleading the
merits, or by motion in arrest of
judgement after conviction, Rucker v.
State 114 Ga. 13,14(1901)"
No demurrers or motions in arrest of
judgement were filed by appellants. The
issue of the purported voidness of certain
counts of the indictment was first raised
in appellants motion for new trial. Under
controlling Supreme Court authority,
appellants motion for new trial cannot be
considered to be viable procedural
substitute for motion in arrest of
judgement Boswell v. State, 114 Ga. 40
(1901).
We may consider only issues properly
raised in lower courts, in this instance, the
issue which these appellants argue was
not properly raised in the trial court. A
motion for new trial is not a proper vehicle
for raising questions at to the legal
sufficiency of an indictment. Accordingly,
appellants
enumerations
of
error
predicated upon the purported voidness of
counts of the indictment present nothing
for review. Abreu v. State, 206 Ga. App.
361, 363(2)(192)

V.

38

However, if this court were to lend credence to the state
appeals court having authority to assume subject
matter jurisdiction to make its ruling and findings,
..then the ruling in Reed v. State, supra, would amount
to a substantive change in law, just for the court to be
able to review those grounds, if it were at all valid.
However, 4 years after the ruling in Reed v. State,
supra, the Georgia supreme court issued a ruling in
Taylor v. State, which stands to negate the viability of
the rulings and application of Reed v. State, and the
authority of the magistrate court, district court and
lower court in using those rulings for any legal purpose.
The court states the following:
...when a claim that an accusation or
indictment is absolutely void is not properly
asserted in the trial court, it can be reviewed
on appeal only through a habeas corpus
proceeding. Accordingly, this claim is not
preserved for appeal and is not properly
before the court for review... To the extent

*

39
that the court of appeals has held otherwise,
that case law is disapproved, see Shelnut v.
State, 289 Ga. App 528, 530(2)(2008),
(holding that although defendant made no
challenge to the indictment until she filed
her motion for new trial she has not waived
her objection." Taylor v. State, 303 Ga. 583
If the rulings in Reed v. State, 294 Ga. 877(2014) have
served to be authoritative and binding, then the rulings
of the Taylor court would apply to repeal the effects
and use of the Reed rulings. The Taylor court ruling
would make a substantive change in law. The courts
references to cases that predate the Reed rulings would
serve to accomplish reviving the effects of the previous
applications of the same law.

Or, as Mr. Reed has

always maintained prior to the ruling in Taylor v.
State, that the trial court and Georgia Supreme Court
of Appeals never had subject matter jurisdiction. No
matter what route is taken to review the current
standing and binding ruling of Taylor v. State, the law
will aid at arriving at one determination, which

40
equates to the fact that the most pertinent portions of
the ruling from each court, that relate directly to the
grounds presented to the courts, cannot be used against
Mr. Reed to deny his claims as not having merit, or as
considered being moot.
The ruling of the Taylor case, stand alone, doesn't
prove every aspect of Mr. Reed's case, but it does
however, prove that the magistrate court, district court,
and lower courts fact findings and evidentiary findings
that embody those courts final reports, as they exist,
are void before this court. The Taylor court ruling
would serve to prove the magistrate; district; and
Eleventh circuit have not considered the statutory
provisions of 28 USC §2254(d)(l)-(2); (e)(2); (e)(2)(B);
(e)(3); (e)(4); (e)(6); (e)(7), once having discovered that
the state habeas courts complete final order defers to a
court order with no subject matter jurisdiction.

* V

\

CONCLUSION

For the foregoing reasons, Petitioner Mark R. A. Reed respectfully
requests that the Court issue a writ of certiorari to the United States
Court of Appeals for the Eleventh Circuit. In the alternative, he
requests that the Court grant certiorari, vacate the Eleventh
Circuit's judgment, and remand with instructions for the Eleventh
Circuit to issue a COA.

Respectfully submitted,

Mark R. A. Reed Petitioner In Pro She
Georgia State Prison GDC 1000664635
300 1st Avenue, South
Reidsville, Georgia 30453

Dated: January 8, 2021

